                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-MERO-13-33                                   Office of Audits                                      August 2013




                   Audit of the U.S. Mission Iraq
                          Staffing Process




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.


                                            UNCLASSIFIED
                                     UNCLASSIFIED




                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector Geneml




                                         PREFACE


     This report was prepared by the Office ofTnspector General (OTG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. Tt is one of a series of a udit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft wi th those responsible for
implementation. It is my hope that these reconunendations will result in more effective,
efficient, and/or economical operations.

     1 express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General




                                     UNCLASSIFIED
            UNCLASSIFIED


Acronyms

BLiSS      Baghdad Life Support Services
COM        Chief of Mission
DoD        Department of Defense
GAO        Government Accountability Office
GOI        Government of Iraq
FAM        Foreign Affairs Manual
M/PRI      Office of Management Policy, Rightsizing and Innovation
MSRP       Mission Strategic Resource Plan
NEA        Bureau of Near Eastern Affairs
OBO        Bureau of Overseas Buildings Operations
OIG        Office of Inspector General
OSC-I      Office of Security Cooperation-Iraq




            UNCLASSIFIED
                                                          UNCLASSIFIED



                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................4

Objectives……. ...............................................................................................................................6

Audit Results ..................................................................................................................................7
       Staffing Process Did Not Fully Consider U.S. Foreign Policy
       Priorities in Iraq ...................................................................................................................7

Appendices
      A. Scope and Methodology................................................................................................20
      B. Strategic Framework Agreement for a Relationship of Friendship
          and Cooperation Between the United States of America and the
          Republic of Iraq–Areas of Cooperation and Commitments ........................................23
      C. U.S. Mission Iraq Direct-Hire and Contractor Staffing by Location and Agency From
          January 2012 Through January 2014 ...........................................................................25
      D. Government Accountability Office Rightsizing Elements and Questions....................27
      E. Bureau of Near Eastern Affairs and U.S. Embassy Baghdad Response .......................29
      F. Bureau of Overseas Buildings Operations Response ....................................................35

Major Contributors to This Report ................................................................................................37




                                                          UNCLASSIFIED
                                                UNCLASSIFIED


                                            Executive Summary
        In February 2012, the Office of the Deputy Secretary of State for Management and
Resources announced an effort to “normalize” the U.S. presence in Iraq. Through a series of
decisions in 2012, the Department, Embassy Baghdad, and officials at the interagency level
decided to reduce U.S. Mission Iraq staff by 61 percent, from a reported level of 16,2981 in
January 2012 to a planned 6,320 by January 2014. Given the magnitude of this reduction and the
potential challenges in achieving the reductions, the Office of Inspector General (OIG) initiated
this work under the authority of the Inspector General Act of 1978, as amended, to assess the
process the Department of State (Department) used for establishing short-term and long-term
staffing for its diplomatic presence in Iraq and to determine whether Mission infrastructure and
construction requirements aligned with the staffing plans.

        The Department and Embassy Baghdad had taken and planned significant steps to reduce
the Embassy’s presence in Iraq by closing nine sites, changing how goods and services are
acquired and delivered, and reducing total staff by 61 percent. However, the process for
determining U.S. Mission Iraq staffing requirements did not include a systematic staffing
analysis that fully considered U.S. foreign policy priorities in Iraq. Instead, operating costs,
security issues, and the Government of Iraq’s (GOI) desire to reduce the U.S. presence led the
Department to decrease direct-hire and contractor staff under Chief of Mission (COM) authority
in Iraq.2 Achieving those cuts was partially accomplished by applying percentage-based
reductions of direct-hire and some contractor staff operating under COM authority. However,
neither the Department nor the Embassy provided guidance on factors that agencies and sections3
should have considered when they eliminated positions. Without a systematic staffing analysis
based on U.S. foreign policy priorities specific to Iraq, the Department could not support that the
planned staff size of 6,320 would provide the proper number or skill mix of personnel needed to
meet the priorities while minimizing security risk and optimizing costs. While the number of
staff should be large enough to meet U.S. foreign policy priorities, each additional person affects
the Mission’s security risks, and each additional U.S. employee increases operating costs by at
least $400,000. Completing a systematic staffing analysis would provide the Department and
Embassy Baghdad with an objective basis for determining the number and skill mix of personnel
needed to achieve the priorities and for balancing achievement of those priorities with security
risks and operating costs associated with placing staff in Iraq.

       With respect to U.S. Mission Iraq infrastructure and construction requirements, there is
presently no plan linking those requirements to the Mission’s staffing plans. The Foreign Affairs

1
  OIG could not validate the accuracy of U.S. Mission Iraq staffing data because of inconsistently applied
procedures for authorizing, tracking, and reporting direct-hire and contractor staffing. Staffing data presented in this
report are derived from Department planning documentation provided by the Bureau of Near Eastern Affairs in May
2013.
2
  Chiefs of Mission are the principal officers in charge of U.S. diplomatic missions and have full responsibility for
the direction, coordination, and supervision of all Government executive branch employees in that country, with
some exceptions. The U.S. Ambassador to a foreign country is the Chief of Mission in that country.
3
  In this report, an “agency” refers to all non-Department of State agencies and offices maintaining staff and
operations in Iraq, such as the Department of Defense or the U.S. Agency for International Development. A
“section” refers to offices and functions staffed and operated primarily by Department of State employees.

                                                     1
                                                UNCLASSIFIED
                                             UNCLASSIFIED

Manual (FAM)4 requires that the Bureau of Overseas Buildings Operations (OBO) direct and
prepare master plans and facility plans that provide comprehensive overviews of facility needs.
Although OBO developed the Baghdad Master Plan prior to the transition from a military-led
mission to a civilian-led mission in Iraq, that plan became obsolete during 2012 as the United
States reduced its presence in the country. Construction of a new consulate compound in Erbil
and, potentially, in Basrah, and maintenance requirements for diplomatic facilities represent
significant one-time and recurring future costs. The size and cost of new diplomatic facilities
depend on the number and types of staff who will work and live in them. To ensure U.S.
facilities are sufficient to meet Mission needs, it is crucial that OBO and the Embassy develop a
strategic facilities plan that reflects the results of a systematic staffing analysis based on U.S.
foreign policy priorities and balanced by security and cost issues.

        In their July 29, 2013 response to a draft of the report (see Appendix E), the Bureau of
Near Eastern Affairs (NEA) and Embassy Baghdad took issue with three aspects of the report
finding. First, they disputed that a properly documented policy development process was not
followed to determine staffing levels. Second, NEA and Embassy Baghdad stated that the audit
team incorrectly assumed that the ongoing staffing reduction process was not linked to U.S.
foreign policy priorities for Iraq. NEA and Embassy Baghdad stated that the document used to
determine the staffing reductions was the Fiscal Year 2013 Mission Strategic Resource Plan
(MSRP). Third, NEA and Embassy Baghdad stated that the draft report incorrectly indicated
that the staffing reduction efforts were directed entirely from Washington and consisted of
mandated across-the-board percentage-based reductions. OIG disagreed with NEA and Embassy
Baghdad’s response to the report finding concerning the policy development process, the use of
the Fiscal Year 2013 MSRP for Iraq, and in part with the response concerning the origination of
the staffing reductions. NEA and Embassy Baghdad’s response and the OIG reply are at the end
of the finding section.

        OIG recommended that Embassy Baghdad, in coordination with the Office of the Deputy
Secretary of State for Management and Resources, and NEA formally communicate U.S. foreign
policy priorities for Iraq to all U.S. Mission Iraq elements. OIG also recommended that Embassy
Baghdad, in coordination with NEA and the Office of Management Policy, Rightsizing and
Innovation (M/PRI), conduct a systematic analysis of staffing requirements based on the policy
priorities, programs, operations, conditions, and other relevant factors specific to U.S. Mission
Iraq. Finally, OIG recommended that OBO, in coordination with Embassy Baghdad, develop a
strategic facilities plan for construction and operations and maintenance activities that reflects
those staffing requirements.

        NEA and Embassy Baghdad concurred with the recommendation to formally
communicate U.S. foreign policy priorities to all elements of the U.S. Mission to Iraq, stating it
would do so immediately. Embassy Baghdad also concurred with the recommendation that it
conduct a systematic analysis of staffing requirements based on the policy priorities, programs,
operations, conditions, and other relevant factors specific to U.S. Mission Iraq, stating that it
plans to begin such an analysis in January 2014. OIG considers these recommendations


4
    1 FAM 283.1, “Office of Master Planning and Evaluations (OBO/PRE/MPE).”

                                                  2
                                             UNCLASSIFIED
                                      UNCLASSIFIED

resolved, and they can be closed upon OIG’s receipt and acceptance of documentation showing
that the recommendations have been fully implemented.

        In its July 16, 2013 response (see Appendix F) to a draft of this report, OBO concurred
with the recommendation to develop a strategic facilities plan, stating that it would implement
the recommendation once a new staffing plan is published. OIG considers this recommendation
resolved, and it can be closed upon OIG’s receipt and acceptance of documentation showing that
the recommendation has been fully implemented.
        .




                                           3
                                      UNCLASSIFIED
                                             UNCLASSIFIED


                                               Background
        In December 2011, the United States transitioned from a predominantly military-led
mission to a civilian-led mission in Iraq. That transition was an unprecedented undertaking,
highly complex in nature and scope, with extensive requirements for staff, budgets, and
organization, and the transition took place in a still violent and unpredictable operating
environment. In January 2012, the Department assumed full responsibility for leading
U.S. operations in Iraq from the Department of Defense (DoD). To facilitate the transition, the
Department increased its overall presence associated with its security capabilities and the
logistics support required in a high-threat environment. According to planning documents
provided by NEA, in January 2012, U.S. Mission Iraq was staffed at 16,298 personnel, of which
12,899 (79 percent) were non-Iraqi contractors providing security and other types of support.

        The large number of contractors is driven in part by the need to provide protective
security for most movements throughout the country. In addition, the Mission requires a large
number of perimeter guard personnel to deter threats to the Embassy and other sites, as stated in
OIG’s March 2010 and May 2011 reports.5 The Mission also uses Department-contracted
aircraft to move most personnel into, within, and out of Iraq. Further, Mission personnel are
provided many basic life support elements not provided at other U.S. missions, including meals
and postal and recreation services.

U.S.-Iraq Strategic Framework Agreement

       The U.S. presence in Iraq is governed by the Strategic Framework Agreement for a
Relationship of Friendship and Cooperation between the United States of America and the
Republic of Iraq (Strategic Framework Agreement),6 which was signed in November 2008 by the
United States and the GOI. The Strategic Framework Agreement outlines broad areas of
cooperation and commitments designed to guide a sovereign GOI toward a sustainable
democracy, and it has been reaffirmed several times since its ratification, most recently in
December 2012.7 The Strategic Framework Agreement areas of cooperation and their associated
commitments are listed in Appendix B.

U.S. Mission Iraq Sites

       As of July 2013, U.S. Government operations in Iraq, including administrative, cultural,
development assistance, diplomatic, and security assistance and cooperation functions and



5
  Performance Audit of the Bureau of Diplomatic Security Baghdad Embassy Security Force (MERO-A-10-05,
March 2010) and Department of State Planning for the Transition to a Civilian-led Mission in Iraq, Performance
Evaluation (MERO/I-11-08, May 2011).
6
  Strategic Framework Agreement for a Relationship of Friendship and Cooperation between the United States of
America and the Republic of Iraq. § III, Nov. 17, 2008, temp. State Department No. 09-7.
7
  The joint U.S.-GOI Higher Coordinating Committee has overall responsibility for the Strategic Framework
Agreement, while specific Joint Cooperation Committees are responsible for operational implementation of the
Strategic Framework Agreement.

                                                  4
                                             UNCLASSIFIED
                                              UNCLASSIFIED

programs, were conducted on 12 sites (see Figure 1).8 Of those 12 sites, six were located in
Baghdad: a 65-acre embassy compound with a Chancery building; the Baghdad Diplomatic
Support Center, which includes an airfield; Embassy Annex Prosperity, which contains vehicle
maintenance, fuel, and other types of support facilities; the Embassy Heliport, used primarily to
transport staff to the Department-operated airfield; Embassy West, used for housing; and the
Embassy Military Attaché and Security Assistance Annex, which houses the Office of Security
Cooperation-Iraq (OSC-I). Sites outside Baghdad include consulates general in Basrah and Erbil
and OSC-I sites in Balad, Besmaya, Taji, and Umm Qasr.

Figure 1. U.S. Mission Iraq Sites as of July 2013




8
  The U.S. Mission operated 16 work sites subsequent to the transition from a military-led mission. The 12 sites
listed do not include the Baghdad Police Academy Annex and the combined OSC-I and Consulate General Kirkuk
site, which were closed in September 2012, or the OSC-I site in Tikrit, which was transitioned to GOI control in
May 2013. The Erbil Diplomatic Support Center was closed on July 1, 2013.

                                                   5
                                              UNCLASSIFIED
                                               UNCLASSIFIED


Iraq Staffing Reduction Efforts

        In February 2012, the Department announced an effort to reduce and realign the Mission
toward a “more normalized embassy presence.”9 Led by the Office of the Deputy Secretary of
State for Management and Resources and supported by NEA and Embassy Baghdad, the
Department began to implement multi-phased staff reductions in Iraq, from a reported 16,298
personnel in January 2012, to a target of 6,320 personnel by January 2014. According to
planning data provided by NEA in May 2013, as of January 2013, total Mission staffing was
14,280: a combination of 11,529 direct hires and contractors and 2,751 Iraqi employees.10 The
Department’s reported and planned staffing totals by agency and location for January 2012,
January 2013, and January 2014 are shown in Appendix C.

                                                   Objectives
        The audit objectives were to assess the process the Department used for establishing
staffing requirements for its diplomatic presence in Iraq and to determine whether Mission Iraq
infrastructure and construction plans aligned with those staffing requirements. Because DoD had
a significant staffing level under COM authority in Iraq, OIG conducted the fieldwork jointly
with the DoD OIG, which also conducted a separate, but concurrent, evaluation project to assess
the adequacy of DoD support for its presence in Iraq. The DoD OIG plans to issue a separate
report in August 2013 with the results of that assessment.




9
  Department of State Special Press Briefing, “Rightsizing U.S. Mission Iraq.” Remarks by Deputy Secretary of
State for Management and Resources, February 8, 2012,
<http://www.state.gov/s/dmr/former/nides/remarks/2012/183598.htm,> accessed on June 4, 2013.
10
   Total for direct-hire and contractor personnel include U.S. and third-country national direct-hire and contractor
personnel and locally employed direct-hire staff of other U.S. missions on temporary assignments. Iraqi employee
totals include both direct-hire and contractor staff.

                                                    6
                                               UNCLASSIFIED
                                            UNCLASSIFIED


                                             Audit Results

Staffing Process Did Not Fully Consider U.S. Foreign Policy Priorities in Iraq

        The Department’s process to determine U.S. Mission Iraq staffing reductions did not
fully consider U.S. foreign policy priorities in Iraq. Instead, the Department and Embassy
Baghdad applied or are applying three primary approaches to achieve an overall 61-percent
staffing reduction—percentage-based reductions for direct-hire staff and some security
contractors, reductions in the amount of life support services provided, and the closure of nine
sites. Specifically, the Department directed that the following series of staff reductions be
achieved by the following dates:

           October 2012 – a 17-percent reduction of direct-hire staff, a 25-percent reduction in
            security staff, and the closure of the Baghdad Police Academy Annex and the Mission
            facilities in Kirkuk.11

           October 2013 – a cumulative 25-percent reduction of direct-hire and contractor staff,
            the closure of most of the Embassy Annex Prosperity work site, and the closure of the
            Erbil Diplomatic Support Center.

           January 2014 – a cumulative 61-percent reduction of direct-hire and contractor staff,
            primarily as a result of additional site closures, for a final planned total of 6,320 staff.

        The Department and Embassy did not complete a systematic staffing analysis that fully
considered U.S. foreign policy priorities, programs, and operations specific to Iraq because of
Congressional and White House concerns that the Department quickly reduce costs and security
vulnerabilities and address the GOI’s desire for a more normalized U.S. diplomatic presence. As
a result, the Department could not support that the final staff total of 6,320 direct-hires and
contractors is the proper size or skill mix needed to meet U.S. Mission Iraq workload
requirements while minimizing security risks and optimizing costs. Moreover, without a
supported staffing requirement, the Department could not make informed decisions concerning
mission infrastructure and construction needs.

Government Accountability Office Framework for Rightsizing Overseas Staffing

        In 2002 and 2003, the Government Accountability Office12 (GAO) established a
framework for rightsizing embassies that aligns the number of staff with foreign policy priorities,
security concerns, and other constraints.13 The framework was developed to guide systematic

11
   In September 2012, Embassy Baghdad and OSC-I closed the OSC-I Kirkuk facilities from which the Consulate
General Kirkuk operated. However, Consulate General Kirkuk operations were being provided from Erbil as of the
date of this report.
12
   The Government Accountability Office was known as the General Accounting Office before July 2004.
13
   GAO testimony and reports: Overseas Presence: Observations on a Rightsizing Framework (GAO-02-659T,
May 2002), Overseas Presence: Framework for Assessing Embassy Staff Levels Can Support Rightsizing Initiatives
(GAO-02-780, July 2002), and Overseas Presence: Rightsizing Framework Can Be Applied at U.S. Diplomatic
Posts in Developing Countries (GAO-03-396, April 2003).

                                                 7
                                            UNCLASSIFIED
                                           UNCLASSIFIED

analyses of staffing needs based on the policy priorities, programs, operations, conditions, and
other factors specific to an embassy or other diplomatic post, and it was designed to help ensure
that the placement and composition of U.S. Government overseas staffing accurately reflected
U.S. foreign policy.14 The framework entails analyzing the embassy priorities and requirements
through a set of specific questions related to an embassy’s mission, such as:
        What are the embassy priorities?
        Does each agency’s mission reinforce the embassy’s priorities?
        Are workload requirements validated and prioritized?
        Are any embassy priorities not being addressed?
GAO stated that the analysis of the embassy mission priorities should be balanced by assessing
security risks and operating costs. GAO’s rightsizing elements and questions are listed in
Appendix D.

        In 2004, citing GAO’s framework, Congress established and funded the Department’s
Office of Right-Sizing the United States Overseas Presence,15 which is now a directorate within
M/PRI. In a 2004 House of Representatives report,16 Congress stated that its intention in
creating this office was to “develop internal and interagency mechanisms to better coordinate,
rationalize, and manage the overall deployment of U.S. Government personnel overseas”17 and
to “link overseas staffing levels to physical security considerations, mission priorities, and
costs.”18 Congress also noted that overseas staffing should be at the minimum level necessary to
meet critical U.S. foreign policy goals19 and to support U.S. national security interests.20

        The importance of establishing U.S. foreign policy priorities for determining overseas
staffing was also emphasized in the Department’s December 2012 Accountability Review Board
report21 on the September 2012 attacks on various compounds in Benghazi, Libya. Specifically,
the Accountability Review Board acknowledged that the Department could not refrain from
operating in high-risk, high-threat areas but stated that the Department must review the proper
balance between acceptable risk and expected outcomes. To do so, the Board stated that the
Department must base decisions on opening and operating posts in high-threat environments on
“defined, attainable, and prioritized mission[s]”22 to justify the risks and operating costs.




14
   President’s Management Agenda, Fiscal Year 2012, and GAO testimony: Overseas Presence: Observations on a
Rightsizing Framework (GAO-02-659T, May 2002).
15
   Pub. L. No. 108-447, tit. IV (2004).
16
   H. Rep. No. 108-221, July 21, 2003.
17
   Ibid, p. 124.
18
   Ibid.
19
   Ibid.
20
   S. Rep. No. 108-144, Sept. 5, 2003, p. 128.
21
   This report can be accessed at <http://www.state.gov/documents/organization/202446.pdf>.
22
   Ibid, p.8.

                                                8
                                           UNCLASSIFIED
                                       UNCLASSIFIED


Department Applied Percentage-Based Reductions, Reduced Life Support Services, and
Closures

        The Department’s process to determine the U.S. Mission Iraq staffing reductions did not
fully consider U.S. foreign policy priorities in Iraq as set forth in the GAO framework. Instead,
the Department directed percentage-based reductions, reduced life support services, and site
closures to reduce total staff to 6,320 personnel by January 2014.

       Percentage-Based Reductions

       To achieve staff reductions for direct hires and some of the security contractor staff, the
Department directed a series of percentage-based cuts. The first cut was directed in March 2012
and required a 17-percent reduction in direct-hire staff by October 2012 and a 25-percent
reduction in security staff by October 2013. The second cut was directed in July 2012 and
extended the 17-percent and the 25-percent reductions to staff “Iraq-wide” by October 2012 and
October 2013, respectively. According to Department officials, a third set of cuts was
subsequently implemented, which increased the overall percentage-based staffing reductions to
35 percent by October 2013. The officials stated that there was no mission priorities-based
analysis supporting these reduction percentage levels, with one of those officials stating that
these percentages were “a way to establish a magnitude of change needed given the awareness of
overcapacity.” Another official described the percentages as “a way to start the discussion based
on what seemed possible.”

        Department and Embassy Baghdad management did not designate the specific positions
to be cut based on functions or skills, deferring those decisions to agency and section managers.
Several current and former embassy management officials and an official from the Office of the
Deputy Secretary of State for Management and Resources stated that there was insufficient
guidance on factors to consider when eliminating the positions. Instead, Embassy, agency, and
section managers were simply told to make the percentage-based cuts. For the first cut, the
Embassy generally focused on eliminating unfilled and soon-to-be vacated positions, regardless
of the job duties or skill set associated with the position. For example, of the 295 direct-hire
positions identified in March 2012 for elimination, 111 positions (38 percent) were unfilled and
97 positions (33 percent) were designated for elimination once the incumbent’s tour was
completed. Similarly, the 25-percent security contractor reduction previously identified was
achieved, in part, through elimination of unfilled positions, resulting from the contractor’s
inability to obtain Iraqi work and residency permits for some of its personnel.

         According to several agency and section managers, there was not an associated reduction
in their respective programmatic or operational responsibilities when the percentage-based cuts
were made. Managers from the Department of the Treasury and the Economic and Public
Affairs sections stated that they were able to achieve staff reductions without having to adjust
their workloads. However, those managers stated that further reductions would require them to
assess and prioritize their workload and policy objectives. Further, one section manager stated
that the section’s workload had increased at the same time the staffing cuts had been made and
that further staff reductions would compromise the section’s ability to address its full workload.



                                            9
                                       UNCLASSIFIED
                                        UNCLASSIFIED


       Reduction in Life Support Services

        The Department planned further staffing reductions by eliminating or reducing some life
support services, which would decrease the need for contractor personnel. In July 2013, the
Department awarded the Baghdad Life Support Services (BLiSS) contract, which replaced the
U.S. Army’s Logistics Civil Augmentation Program IV, Defense Logistics Agency’s contract for
food and fuel, and the Army Sustainment Command’s contract for security equipment
maintenance. The Department used the DoD contracts as a bridge between the life support
services provided during the military-led mission and the services to be provided under the
civilian-led mission. According to contract solicitation documents, BLiSS will provide life
support services at the Embassy compound, Embassy Heliport, Baghdad Diplomatic Support
Center, and Consulate General Basrah. Unlike the previous life support contracts, BLiSS will
not provide life support services for DoD contractors that provide equipment and training to Iraqi
forces under the Foreign Military Sales program. According to Department planning documents,
reductions in life support and aviation services should eliminate at least 829 contractor positions.
(The Embassy’s planned contractor staffing reduction from January 2012 to January 2014 is
shown in Figure 2 and Appendix C.)




                                             10
                                        UNCLASSIFIED
                                                UNCLASSIFIED


Figure 2. Reported and Planned Number of Contractor Staff in Iraq by Location in
January 2012 and January 2014
                                                        Number of Contractors*
                                                  January         January
                                                    2012            2014
                    Location                     (reported)      (planned)     Change
              Chief of Mission Sites
 Embassy Compound                                4,077          2,565       -1,512
      Program Offices                                                            125             88               -37
      Management Office                                                          463            397               -66
      Regional Security Office                                                 2,164           1,574             -590
      Aviation Services                                                           86             96               10
      Life Support Services                                                    1,239            410              -829
    Embassy Annex Prosperity                                            532                0             -532
    Consulate General Basrah                                          1,102              657             -445
    Consulate General Erbil                                             867              306             -561
    Consulate General Kirkuk                                            117                0             -117
    Baghdad Diplomatic Support Center                                 1,330              748             -582
    Baghdad Police Annex                                                807                0             -807
                         Subtotal                                     8,832            4,276           -4,556
       Office of Security Cooperation-Iraq Sites
    Embassy Military Attaché and Security Assistance
    Annex                                                              846                 0             -846
    Balad                                                                0                50               50
    Besmaya                                                            621                 0             -621
    Kirkuk                                                             630                 0             -630
    Taji                                                             1,138                 0           -1,138
    Tikrit                                                             423                 0             -423
    Umm Qasr                                                           277                 0             -277
    OSC-I contractor staff at Chief of Mission sites                   132               134                 2
                          Subtotal                                   4,067               184           -3,883
                            Total                                   12,899             4,460           -8,439
*
 Includes U.S. and third-country national contractor staff. Excludes Iraqi contractor staff.
Source: Department of State.




                                                     11
                                                UNCLASSIFIED
                                             UNCLASSIFIED


        Site Closures

       The Department also made and has planned additional staffing reductions associated with
closing nine of the 16 sites operated by the Department or OSC-I. Closing the nine sites
eliminates the associated contractors who provide security, life support, management, and
maintenance services.

        According to Department staff and planning documents, the Embassy will eliminate
6,840 contractor positions through site closures and consolidations by January 2014. The
documents indicate that closing the Baghdad Police Academy Annex and removing staff from
Kirkuk in September 201223 and transitioning the OSC-I Tikrit site to the GOI in May 2013
eliminated 1,977 contractor positions. In addition, as of May 2013, Embassy Baghdad had
closed approximately 85 percent of the facilities and land on the Embassy Annex Prosperity site
and planned to close that site and four of the remaining five OSC-I sites by December 31,
2013.24 The closures of these sites will eliminate an additional 3,414 contractor positions.25
Finally, the Erbil Diplomatic Support Center closed on July 1, 2013, with the direct-hire and
local staff being relocated to Consulate General Erbil. This consolidation was expected to
eliminate 1,010 contractor positions.

Abbreviated Timeframe and Lack of Established Policy Priorities Prevented a Systematic
Staffing Analysis

        Although consideration of U.S. foreign policy priorities is key to establishing staffing
requirements in accordance with the GAO framework, the Department did not fully consider
these priorities when determining the January 2012 through January 2014 staffing cuts. Instead,
Department officials stated that the staffing cuts were driven by Congressional and White House
concerns to quickly reduce costs and security vulnerabilities and to address the GOI’s desire for
a more normalized U.S. diplomatic presence.

        Abbreviated Timeframe to Make Staffing Decisions

        According to Department officials, Congressional and White House concerns over the
high costs and security vulnerabilities associated with Iraq operations, as well as the GOI’s
desire for a more “normalized” presence, led the Department to reduce staffing in Iraq. In an
October 2012 interview with OIG, the U.S. Ambassador to Iraq stated that after the Department
had assumed leadership for Iraq operations, the Mission had retained the structures and staffing
levels of the previous military-led mission. He further stated that pre-transition mission
requirements and staffing needs were derived from the “unlimited funding” associated with the

23
   According to NEA, Embassy Baghdad, and Consulate General Kirkuk officials, the Mission facility in Kirkuk was
closed in September 2012 for security-related reasons. However, Kirkuk consular services were being remotely
provided from Erbil. The Baghdad Police Academy Annex was closed following a U.S.-GOI agreement to reduce
the level and type of training provided under the Police Development Program.
24
   OSC-I Balad was scheduled to remain open in support of the foreign military sales F-16 fighter program.
25
   This number includes OSC-I contractors who provide program-related services and who, after the closures, will
no longer be counted toward COM staffing. The staffing data provided by NEA does not distinguish between
OSC-I contractors who provide program-related services and non-program-related services.

                                                  12
                                             UNCLASSIFIED
                                                UNCLASSIFIED

presence of U.S. Forces in Iraq prior to the December 2011 transition. Since the transition, the
Department’s planned total funding requirements for Iraq operations decreased from
$3.38 billion in 2012 to an estimated $1.55 billion in 2014, a 54-percent decrease.26

         Iraq remains a high-threat security environment that could degrade rapidly, increasing
risk to U.S. Government staff and facilities. For example, according to Consulate General
Kirkuk officials serving in Erbil, increased hostilities in the Kirkuk region significantly increased
the risk to U.S. Government employees and led the Embassy to remove all staff from the area.
In addition, heightened security concerns in the fall of 2012 led to a final level of 6,320 direct-
hire staff and contractor staff by January 2014. Further, Embassy Baghdad officials stated that
the perception of a continuing large presence, including that of a large military element,
contributed to the belief among Iraqis that the United States still occupied their country.
Therefore, the high operating costs, security vulnerabilities, and GOI’s desire for a normalized
presence became the primary considerations for the staffing reductions instead of a systematic
analysis. One senior NEA official stated that it would be unreasonable to complete a systematic
analysis given the size of the presence at the start of the process. Moreover, the official stated
that it was already known that Mission Iraq had too many unnecessary staff. Another NEA
official stated that it was generally unrealistic to conduct a comprehensive staffing analysis
because agencies and sections operated under budget constraints and could not identify mission
needs in an unbiased manner. NEA and Embassy officials stated that U.S. domestic political
considerations to reduce operating costs and security vulnerabilities in Iraq and the GOI’s desire
for a more normal U.S. presence demanded an abbreviated timeframe in which to significantly
reduce the number of U.S. Government employees and contractors.

           Staffing Decisions Not Linked to U.S. Foreign Policy Priorities

         The Department did not establish U.S foreign policy priorities in Iraq that aligned with a
more normalized diplomatic presence before making the staffing decisions, nor had it developed
a specific and agreed-upon definition for such a presence. Understanding an embassy’s mission,
that is, its policy priorities, is one of the three elements needed to conduct comprehensive
staffing analyses in accordance with the GAO rightsizing framework. A full analysis of that
element is important in determining overseas staffing because the mission represents what an
embassy is trying to achieve.

        Department officials stated that the Strategic Framework Agreement was the most
authoritative document outlining what the United States was trying to achieve in Iraq. However,
the framework was not useful in guiding staffing decisions for two reasons. First, the seven
areas of cooperation and 35 commitments were broad and were not prioritized, and they were
intended to provide the basis for the U.S.-GOI relationship rather than to determine specific
U.S. Government operational requirements. In addition, the agreement was established 3 years
before the transition from a military-led to a civilian-led mission. Although the United States
and the GOI have reaffirmed the agreement on several occasions since 2008, as of June 2013, the
agreement had not been updated to reflect the changes in the U.S.-GOI relationship or the
U.S. presence associated with the transition to a civilian-led mission.

26
     Department of State FY 2014 Congressional Budget Justification, p. 726.

                                                     13
                                                UNCLASSIFIED
                                              UNCLASSIFIED



        In March 2013, Department and former senior Embassy Baghdad officials stated that
there was a period of time after the transition from the military-led mission to a civilian-led
mission when strategic decisions were not made, with one official calling the period “a strategic
vacuum.” Nevertheless, NEA officials stated that staffing reductions through October 2013 were
made and planned based on policy criteria. According to documents provided by NEA officials,
policy priorities for Iraq were formally adopted at an interagency level in October 2012, and in
December 2012, the Embassy was instructed to complete the staffing reductions by January 2014
using those priorities as criteria. Despite assurances that these latter criteria had been applied in
the period following their formal adoption, Embassy and NEA officials could not provide
documentation showing how staffing levels, whether for overall staffing or for staffing for
specific agencies and sections, were systematically assessed based on those criteria.

         According to Department and Embassy staff, a broad goal of the staffing reductions was
to “normalize” the U.S. diplomatic presence in Iraq. However, neither the Department nor
Embassy Baghdad had developed a specific agreed-upon definition of “normalized.” In
February 2012, a month before the initial staffing reduction was announced, the Deputy
Secretary of State for Management and Resources stated that through 2012, the Department
would begin to rightsize “to a more normalized embassy presence,” although he acknowledged
that “there’s never such a thing as a normal embassy.”27 He further stated that the principal goal
was “to shift our reliance on contractors to basically hiring more local Iraqis.” In an October
2012 interview with OIG, the U.S. Ambassador to Iraq stated that normalization was “less of a
defined term than a mental concept of acknowledging that we are not normal now.” He said that
a normal presence is when an embassy is “not breaking all the rules” and has moved “from being
an exceptional to a more standard embassy.” The Department’s FY 2014 Congressional Budget
Justification, released in May 2013, describes normalization in Iraq as reducing “the scale of our
mission to a sustainable diplomatic and development presence . . . scaling our footprint to a
smaller, more sustainable level . . . [and anticipating] that the GOI will continue to assume
greater responsibility for its development funding requirements as oil revenues increase.”28
Finally, in July 2013, Embassy Baghdad officials stated that a “normal” relationship is one in
which the Mission functions “completely within [internationally] recognized parameters for
diplomatic relations (such as the Vienna Convention on Diplomatic Relations and Vienna
Convention on Consular Relations), not under separate UN authorities or a security agreement
with the Government of Iraq.”

        NEA officials stated, and M/PRI officials confirmed, that M/PRI, the office created in
2004 to conduct rightsizing analysis for overseas missions, did not participate in the ongoing
staffing reduction process. NEA staff stated that they had consulted a 2011 M/PRI rightsizing
report for Iraq29 when determining staffing requirements for the Mission but did not ask M/PRI
for assistance with the overall process. Although M/PRI worked with Consulate General Erbil to
conduct a rightsizing review for the consulate general,30 the effort was to support OBO’s planned

27
   Department of State Special Press Briefing “Rightsizing U.S. Mission Iraq.” Remarks by Deputy Secretary of
State for Management and Resources, Feb. 8, 2012.
28
   Department of State FY 2014 Congressional Budget Justification, p. ix.
29
   M/PRI Rightsizing Review, U.S. Mission Iraq (Sept. 6, 2011).
30
   M/PRI Rightsizing Review, U.S. Mission Iraq (Erbil Only) (April 2, 2013).

                                                   14
                                              UNCLASSIFIED
                                           UNCLASSIFIED

construction of a new consulate compound and was not part of the overall staffing reductions
that began in March 2012.

        Although the Department had incorporated two parts of GAO’s framework (costs and
security risks) as factors when reducing staffing, it had not placed equal emphasis on U.S.
foreign policy priorities or mission for Iraq. Including a systematic analysis of U.S. foreign
policy priorities, balanced by security and cost issues, would help ensure that Mission Iraq is
properly sized and has the proper skill mix to achieve U.S. goals.

Iraq Staffing Target May Not Reflect Foreign Policy Needs or Minimize Security Risks or
Costs

        Without a systematic staffing analysis based on U.S. foreign policy priorities specific to
Iraq, the Department cannot support that a planned staff size of 6,320 provides the proper
number or skill mix of personnel needed to meet Mission priorities while minimizing security
risk and optimizing costs. If 6,320 personnel are too few staff, the risk that foreign policy
priorities may not be achieved is increased; if 6,320 personnel are too many staff, security risks
and operating costs may be increased.

        While the number of staff should be large enough to ensure that U.S. foreign policy
priorities are met, the staff size should be the minimum necessary to achieve those priorities.
Each additional person affects the security risks and operating costs of Embassy Baghdad. The
Department has categorized Iraq as a high-threat, high-risk environment, which is defined as a
mission that has high-to-critical levels of political violence and terrorism and with host nation
security capabilities well below established standards. Although the Embassy cannot eliminate
the risks inherent in such an environment, ensuring that the minimum number of personnel
required to meet foreign policy priorities are on staff can reduce that security risk.

        With respect to operating costs, a 2006 GAO report31 stated that the average annual cost
for one direct-hire American placed in overseas locations ranged from $400,000 to $491,000,
which included costs such as salary, security, office leases, and travel. The 2013 per-person cost
for Iraq is likely significantly greater than the cost cited by GAO, given inflation and the unique
requirements in Iraq, such as the security and life support services provided. Ensuring that the
Mission includes only the minimum number of positions it needs to achieve U.S. priorities in
Iraq can help contain operating costs.




31
 Overseas Staffing: Rightsizing Approaches Slowly Taking Hold, but More Action Needed To Coordinate and
Carry Out Efforts (GAO-06-737, June 2006).

                                                15
                                           UNCLASSIFIED
                                           UNCLASSIFIED


Construction Plans and Infrastructure Requirements Should Reflect Projected Long-Term
Staffing

       Until a staffing analysis is completed, the Department cannot make informed decisions
concerning U.S. Mission Iraq infrastructure and construction needs. Construction projects are
underway in conjunction with the Baghdad and Erbil consolidations, and OBO and Embassy
Baghdad have begun to plan a new consulate compound for Erbil, with construction planned to
begin in 2014. However, these construction projects, as well as infrastructure needs in Basrah,
are based on the 6,320 staffing level, which may not reflect the staffing need for Iraq.

        The construction of new facilities and facility operations and maintenance requirements
represent significant one-time and recurring future costs. As GAO noted,32 the size and cost of
new diplomatic facilities are dependent on projections of the number of personnel who will work
in them and the type of work they will do. In 2012, the Department awarded contracts in
11 countries for the construction of new embassy, consular, and office compounds and other
significant capital projects, such as new office annexes and housing projects. The average award
value for these construction projects was $149.5 million, ranging from $50.2 million for a new
embassy compound in Port Moresby, Papua New Guinea, to $463.7 million for the new London,
United Kingdom, embassy. These costs included only the contract values and did not include
other construction-related costs, such as security management and office furniture. Containing
construction costs, particularly for the new consulate compound in Erbil and, potentially, a new
compound in Basrah, requires that U.S. Mission Iraq accurately project future staffing in those
locations.

        In addition, facility operation and maintenance costs represent significant recurring costs.
In 2004, the National Research Council of the National Academies33 estimated that construction
costs represent 5 to 10 percent of a facility’s total life cycle costs while operations and
maintenance costs generally range from 60 to 85 percent of a facility’s life cycle costs. The
Council also stated that each dollar of deferred maintenance results in $4 to $5 in long-term
capital liabilities.34

         The FAM35 requires that OBO direct and prepare master plans and facility plans that
provide comprehensive overviews of posts’ facility needs, including optimum utilization of
existing sites and assets, rehabilitation of existing facilities, and construction of new facilities. In
addition, according to the National Research Council,36 facilities plans and facilities
requirements should be guided by and directed toward achieving an organization’s mission.
OBO developed the Baghdad Master Plan in November 2010 in preparation for its assumption of
facilities management responsibilities at military-operated facilities following the transition from

32
   Embassy Construction: Process for Determining Staffing Requirements Needs Improvement (GAO-03-411, April
2003).
33
   National Research Council of the National Academies, Investments in Federal Facilities: Asset Management
Strategies for the 21st Century (Washington, DC: 2004).
34
   Ibid.
35
   1 FAM 283.1, “Office of Master Planning and Evaluations (OBO/PRE/MPE).”
36
   National Research Council of the National Academies, Investments in Federal Facilities: Asset Management
Strategies for the 21st Century (Washington, DC: 2004).

                                                16
                                           UNCLASSIFIED
                                        UNCLASSIFIED

a military-led to a civilian-led mission. The plan was based on the continuation of the U.S.
presence at pre-transition levels, but the plan became obsolete during 2012 as the United States
reduced its staffing, prepared to consolidate staff to the Embassy compound, and closed and
returned facilities to the GOI. During this process, OBO has worked with the Embassy to
prioritize construction based on the time frames to complete site closures and consolidation.
However, to ensure that Iraq facilities are sufficient to meet Mission needs and achieve their
intended life cycles, it is crucial that OBO and the embassy develop a strategic facilities plan that
reflects the results of a systematic staffing analysis based on U.S. foreign policy priorities and
balanced by security and cost issues.

Management Response to Finding

        In their response (see Appendix E) to a draft of the report, NEA and Embassy Baghdad
took issue with three aspects of the report finding. First, they disputed that a properly
documented policy development process was not followed to determine staffing levels. NEA
and Embassy Baghdad stated that because M/PRI had declined a request in 2011 to conduct a
formal rightsizing study, they used an informal comparator country methodology to determine
staffing levels for the 2014 summer transfer season. Specifically, they identified Bogota, Cairo,
Riyadh, and Kuala Lampur embassies as comparator posts and developed staffing levels based
on staffing at those embassies, adjusting the levels “for the peculiar situation in Iraq.”

        NEA and Embassy Baghdad also stated that the audit team incorrectly assumed that the
ongoing staffing reduction process was not linked to U.S. foreign policy priorities for Iraq but
instead was linked to the Strategic Framework Agreement. NEA and Embassy Baghdad stated
that the document used to determine the staffing reductions was the Fiscal Year 2013 MSRP, in
which the U.S. Mission Iraq policy priorities were clearly identified.

        Lastly, NEA and Embassy Baghdad stated that the draft report indicated that the staffing
reduction efforts were directed entirely from Washington and consisted of mandated across-the-
board percentage-based reductions. They stated that the reductions were not mandated but
instead were guidelines for the rightsizing process. NEA and Embassy Baghdad added that
different Embassy sections received different levels of reductions and that the biggest reductions
resulted from the transition away from DoD contracting and support. In their response, NEA and
Embassy Baghdad included a description of the staffing reduction process and the changes and
adjustments that had been made to it since January 2012.

OIG Reply

        OIG disagrees with NEA and Embassy Baghdad’s response to the report finding
concerning the policy development process, the use of the Fiscal Year 2013 MSRP for Iraq, and
in part with the response concerning the origination of the staffing reductions. With respect to
the policy development process, OIG’s position is that the staffing decisions were not based on,
or linked to, an established set of U.S. foreign policy priorities for Iraq. Although OIG agrees
that NEA and the Embassy conducted a comparator analysis, they could not provide
documentation showing how policy priorities were used as a variable in that analysis or how the
results of the analysis were linked to actual staffing decisions.

                                             17
                                        UNCLASSIFIED
                                       UNCLASSIFIED



         Although NEA and the Embassy assert that staffing decisions were guided by priorities
listed in the Fiscal Year 2013 MSRP for Iraq, OIG could not verify the linkage. Neither the
Embassy nor NEA could provide documents showing how staffing levels were systematically
assessed based on either of those criteria.

       With respect to the origination of the staffing reductions, OIG did not state that the
reduction efforts were entirely directed from Washington. Instead, OIG characterized the
process as one led by the Office of the Deputy Secretary of State for Management and Resources
and supported by NEA and Embassy Baghdad. OIG acknowledges, however, that the
percentage-based reductions were not always “across-the-board” cuts and therefore adjusted the
wording in the report accordingly.

Redirected Recommendation: OIG redirected Recommendation 1 to U.S. Embassy Baghdad
instead of to the Office of the Deputy Secretary of State for Management and Resources after
consultation with Embassy Baghdad and NEA.

       Recommendation 1. OIG recommends that U.S. Embassy Baghdad, in coordination
       with the Office of the Deputy Secretary of State for Management and Resources and the
       Bureau of Near Eastern Affairs, formally communicate U.S. foreign policy priorities to
       all elements of the U.S. Mission to Iraq.

       Management Response: Embassy Baghdad concurred, stating it would take immediate
       action to formally communicate U.S. foreign policy priorities to all elements of the U.S.
       Mission to Iraq through a special Country Team meeting.

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that the Embassy has
       formally communicated U.S. foreign policy priorities to all Mission elements.

       Recommendation 2. OIG recommends that U.S. Embassy Baghdad, in coordination with
       the Bureau of Near Eastern Affairs and the Office of Management Policy, Rightsizing
       and Innovation, conduct a systematic analysis of staffing requirements based on the
       policy priorities, programs, operations, conditions, and other relevant factors specific to
       U.S. Mission Iraq.

       Management Response: Embassy Baghdad concurred, stating it has already requested
       and received permission to conduct a formal rightsizing study in January 2014.

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that the rightsizing study
       includes a systematic staffing analysis based on policy priorities, programs, operations,
       conditions, and other relevant factors.

       Recommendation 3. OIG recommends that the Bureau of Overseas Buildings
       Operations, in coordination with U.S. Embassy Baghdad, develop a strategic facilities

                                            18
                                       UNCLASSIFIED
                                UNCLASSIFIED

plan for construction and maintenance that reflects the results of a systematic analysis of
staffing requirements.

Management Response: OBO concurred, stating that it would be able to implement the
recommendation once M/PRI and NEA and the Bureau of South and Central Asian
Affairs complete the rightsizing study.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that OBO has developed a
strategic facilities plan that reflects the results of a rightsizing study.




                                     19
                                UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                 Appendix A
                                      Scope and Methodology

       The Office of Inspector General (OIG) initiated this audit under the authority of the
Inspector General Act of 1978, as amended. The audit objectives were to assess the process the
Department of State (Department) used for establishing staffing requirements for its diplomatic
presence in Iraq and to determine whether U.S. Mission Iraq infrastructure and construction
requirements aligned with those staffing requirements. Because the Department of Defense
(DoD) had a significant staffing level under Chief of Mission (COM) authority in Iraq, OIG
conducted the fieldwork jointly with the DoD OIG, which also conducted a separate, but
concurrent, evaluation project to assess the adequacy of DoD support for its presence in Iraq.
The DoD OIG plans to issue a separate report in August 2013 with the results of that assessment.

        To accomplish the audit objectives, OIG reviewed the Department’s Foreign Affairs
Handbook and Foreign Affairs Manual for legal and regulatory requirements and definitions
related to overseas staffing and post management. In addition, OIG reviewed documents
obtained from the Bureau of Near Eastern Affairs and U.S. Embassy Baghdad to determine Iraq
mission requirements and staffing targets over time. OIG also reviewed relevant OIG reports1 on
rightsizing the Department’s overseas process and activities in Iraq, Government Accountability
Office (GAO) reports and testimonies2 outlining the development and application of a rightsizing
framework, and a 2011 rightsizing report for U.S. Mission Iraq written by the Office of
Management Policy, Rightsizing and Innovation.3

        OIG conducted interviews with officials from the Office of the Deputy Secretary of State
for Management and Resources, the Bureau of Near Eastern Affairs, and Office of Management
Policy, Rightsizing and Innovation and with three former Embassy Baghdad senior managers to
understand the process used to determine U.S. staffing requirements in Iraq. OIG also met with
officials from the Bureau of Diplomatic Security, the Office of U.S. Foreign Assistance
Resources, and the Bureau of International Narcotics and Law Enforcement Affairs. To discuss
the quality of Iraq staffing data, OIG met with officials from the Bureau of Human Resources.
To discuss ongoing and planned construction at Embassy Baghdad and elsewhere in Iraq, OIG
met with officials from the Bureau of Overseas Buildings Operations. Finally, OIG met with
DoD officials from the Defense Security Cooperation Agency, the Defense Logistics Agency,
and the U.S. Central Command. In addition, OIG and DoD’s Office of Inspector General
conducted fieldwork at five Iraq locations: Baghdad, Basrah, Besmaya, Erbil, and Taji. During
1
  OIG reports: Inspection of Embassy Baghdad and Constituent Posts, Iraq (ISP-I-13-25A, May 2013); Audit of the
Bureau of Diplomatic Security Worldwide Protective Services Contract-Task Order 5 for Baghdad Movement
Security (AUD-MERO-13-25, March 2013); Department of State Planning for the Transition to a Civilian-led
Mission in Iraq (MERO-I-11-08, May 2011); and Rightsizing the U.S. Government Presence Overseas: A Progress
Report (ISP-I-06-11, December 2005).
2
  GAO reports: Overseas Presence: Observations on a Rightsizing Framework (GAO-02-659T, May, 2002);
Overseas Presence: Framework for Assessing Embassy Staff Levels Can Support Rightsizing Initiatives (GAO-02-
780, July 2002); Overseas Presence: Rightsizing Framework Can Be Applied at U.S. Diplomatic Posts in
Developing Countries (GAO-03-396, April 2003); and Embassy Construction: Process for Determining Staffing
Requirements Needs Improvement (GAO-03-411, April 2003).
3
  “U.S. Mission M/PRI Rightsizing Review” (Sept. 6, 2011).

                                                  20
                                             UNCLASSIFIED
                                         UNCLASSIFIED

fieldwork, the teams interviewed officials and collected and reviewed documents on agency
staffing, functions, and operations. The specific offices visited are listed in Figure 1.

Figure 1. U.S. Government Agencies in Iraq From Which Personnel Were Interviewed
                                     Department of State
 Embassy Baghdad                               Consulate General Basrah
  Executive Office                                Executive Office
  Consular Section                                Economics Section
  Economic Section                                Facilities Management Office
  Facilities Management Office                    Management Office
  General Services Office                         Overseas Buildings Operations
  Human Resources Office                          Public Affairs Office
  International Narcotics and Law Enforcement     Political Section
  Management Office                               Regional Security Office
  Medical Office                               Consulate General Erbil
  Overseas Buildings Operations                   Executive Office
  Public Affairs Office                           General Services Office
  Political Section                               Management Office
  Political Military Section                      Regional Security Office
  Refugees Office                                 Overseas Buildings Operations
  Regional Security Office                        Political-Economics Section

               Department of Defense                         Other U.S. Agencies
 Army-Air Force Exchange Service                  Department of Commerce
 Counter Terrorism Service                        Department of Homeland Security
 Joint Intelligence Support Element               Department of Justice
 Defense Contract Audit Agency                    Department of Transportation
 Defense Logistics Agency                         Department of the Treasury
 Defense Contract Management Agency               U.S. Agency for International Development
 Explosive Ordnance Disposal
 National Capabilities and Resources Office
 Office of Security Cooperation-Iraq
 U.S. Army Corps of Engineers
Source: OIG.

       OIG conducted this audit from June 2012 through June 2013 in accordance with
generally accepted government auditing standards. Those standards require that OIG plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for its
findings and conclusions based on the audit objectives.




                                              21
                                         UNCLASSIFIED
                                       UNCLASSIFIED


Work Related to Internal Controls
       OIG performed steps to assess the adequacy of internal controls related to Embassy
personnel functions. For example, OIG interviewed officials from the Bureau of Human
Resources and Embassy Baghdad’s Human Resources Office to review procedures for
authorizing, tracking, and reporting direct-hire and contractor staffing levels in Iraq. OIG
determined that procedures in place prior to the commencement of the staffing reduction process
in March 2012 were inconsistently applied, and it could not validate the Department’s initial
baseline figure of 16,125 total staff in Iraq or a May 2013 revised baseline figure of 16,298. OIG
used the latter figure as a baseline for calculating gross and percentage staffing reductions
because it was the basis for the Department’s planning. However, OIG identified this baseline
and subsequent staffing snapshots as “reported” staffing levels.

Use of Computer-Processed Data
       OIG used data that included computer-generated spreadsheets. To assess the reliability
of computer-processed data, OIG interviewed officials knowledgeable about the data and
reviewed existing documentation related to the data sources. From these efforts, OIG identified
some data problems as mentioned in various sections of this report. Despite those data issues,
OIG believes the data were sufficiently reliable for the purposes of its report. OIG therefore
believes that the evidence obtained provides a reasonable basis for the findings and conclusions
based on the audit objectives.




                                            22
                                       UNCLASSIFIED
                                  UNCLASSIFIED


                                                                                   Appendix B

        Strategic Framework Agreement for a Relationship of Friendship
         and Cooperation Between the United States of America and the
           Republic of Iraq–Areas of Cooperation and Commitments

    Areas of Cooperation                               Commitments
Principles of Cooperation   Establish a relationship of friendship and cooperation and Iraqi
                            sovereignty
Political and Diplomatic    Support and strengthen Iraq’s democracy and democratic institutions
Cooperation                 Support and enhance Iraq’s status in regional and international
                            organizations
                            Support the Government of Iraq (GOI) in establishing positive
                            relations with the region
Defense and Security        Help the GOI fully develop the capability to deter all threats against
Cooperation                 its sovereignty, security ,and territorial integrity
Cultural Cooperation        Promote cultural and social exchanges and facilitate cultural
                            activities
                            Promote and facilitate cooperation in the field of higher education
                            and scientific research
                            Strengthen the development of Iraq’s future leaders through
                            exchanges, training programs, and fellowships
                            Strengthen and facilitate the application process for U.S. visas to
                            enhance Iraqi participation in U.S.-based exchange programs
                            Promote Iraq’s efforts in the field of social welfare and human rights
                            Promote Iraqi efforts and contributions to international efforts to
                            preserve Iraqi cultural heritage
Economic and Energy         Support Iraq’s efforts to invest resources toward sustainable
Cooperation                 economic development and investment in projects that improve the
                            basic services for the Iraqi people
                            Maintain active bilateral dialogue on measures to increase Iraq’s
                            development
                            Promote expansion of bilateral trade
                            Support Iraq’s further integration into regional and international
                            financial and economic communities and institutions
                            Reinforce international efforts to reconstruct, rehabilitate, and
                            maintain economic infrastructure
                            Urge all parties to abide by commitments made under the
                            international compact with Iraq
                            Facilitate the flow of direct investments into Iraq
                            Promote Iraq’s development of the Iraqi electricity, oil ,and gas
                            sectors
                            Work with the international community to help locate and reclaim
                            illegally exported assets of Saddam Hussein and his family
                            Encourage the creation of a positive investment environment to
                            modernize Iraq’s private industrial sector
                            Encourage development in the fields of air, land, and sea
                            transportation

                                       23
                                  UNCLASSIFIED
                                     UNCLASSIFIED

                               Help Iraq develop its domestic agricultural production and trade
                               policies
                               Promote access to programs that increase farm, firm, and marketing
                               productivity to generate higher incomes and expanded employment
                               Encourage increased Iraqi agricultural exports
Health and Environmental       Support and strengthen Iraq’s efforts to strengthen health care
Cooperation                    systems and networks
                               Support Iraq’s efforts to train health and medical cadres and staff
                               Maintain dialogue on health policy issues to support Iraq’s long-term
                               development
                               Encourage Iraqi and international investment in the health field
                               Encourage Iraqi efforts to protect, preserve, improve, and develop the
                               Iraqi environment and encourage regional and international
                               environmental cooperation
Information Technology and     Support information exchange and the development of best practices
Communications                 in telecommunications services regulation and the development of
                               information technology policies
                               Promote active Iraqi participation in the meetings and initiatives of
                               the Internet Governance Forum
Law Enforcement and Judicial   Support the further integration and security of the Iraqi criminal
Cooperation                    justice system
                               Exchange views and best practices related to judicial capacity
                               building and training
                               Enhance law enforcement and judicial relationships to address
                               corruption and common transnational criminal threats




                                          24
                                     UNCLASSIFIED
                                           UNCLASSIFIED


                                                                                              Appendix C

           U.S. Mission Iraq Direct-Hire and Contractor Staffing
     by Location and Agency From January 2012 Through January 2014
         Location/Agency                   January 2012        January 2013         January 2014
                                            (Reported)          (Reported)            (Planned)
                                           DH        CON       DH       CON         DH        CON
                                   *
Baghdad Embassy Compound
Department of State                        579       2,745     492      1,829       406       2,137
  Program Offices                           297         32      236         55       175         70
  Management Offices                        100        463       86        397        77        397
  Regional Security Office                  174       2,164     156       1,299      142       1,574
  Aviation Services                              4      86          4       78            2      96
  Office of Inspector General                    4         0     10             0     10          0
Department of Defense**                     46         38       42        15         70          8
Department of Homeland Security              3          0        7         0          0          0
Department of Justice                       37          7       24         8          8          8
Department of Transportation                11          1        5         0          3          0
Department of the Treasury                  16          0        7         0          7          0
Foreign Agriculture Service                  5          3        0         0          0          0
Foreign Commercial Service                   2          2        3         2          1          2
Government Accountability Office             0          0        0         0          0          0
Office of Security Cooperation-Iraq          0          0        9         0        100          0
U.S. Agency for International               41         42       31         0          5          0
Development
Direct-Hire Third-Country National          67           0     119          0        64          0
Life Support Contractors                     0       1,239       0        30          0        410
Unallocated Positions                      172           0       0          0         0          0
                                Subtotal   979       4,077     739      1,884       664       2,565




                                                25
                                           UNCLASSIFIED
                                                UNCLASSIFIED

                 Location                      January 2012              January 2013         January 2014
                                                (Reported)                (Reported)            (Planned)
                                               DH     CON                DH     CON            DH     CON
    Embassy Annex Prosperity*
    Department of State                            4       375                4       681       0            0
    Department of Defense                        37            16         20              1     0            0
    Life Support Contractors                       0       141                0       815       0            0
                                  Subtotal       41        532            24         1,497      0            0
                                   *
    Other Chief of Mission Sites
    Consulate General Basrah                     81       1,102           75          986      46       657

    Consulate General Erbil (including          145        867          161           735      86       306
    Erbil Diplomatic Support Center)
    Consulate General Kirkuk                     37            117            0           0     0            0
    Baghdad Diplomatic Support Center            35       1,330           32         1,124     36       748
    Baghdad Police Annex                        108            807            0           0     0            0
                                  Subtotal      406       4,223         268          2,845    168      1,711
    Office of Security Cooperation –
    Iraq*
    Embassy Military Attaché and                192        846          210           885       0            0
    Security Assistance Annex
    Balad                                          0                0         0           0     0           50
    Besmaya                                      18            621        21          836       0            0
    Kirkuk                                         8           630            0           0     0            0
    Taji                                         23       1,138           36         1,244      0            0
    Tikrit                                       18            423        21          587       0            0
    Umm Qasr                                     18            277        26          251       0            0
    OSC-I personnel at Chief of Mission          11            132        25          130      38       134
    sites
                                Subtotal        288       4,067          339         3,933     38       184
    Total Less Iraqi Employees                1,714      12,899         1,370       10,159    870      4,460
                                                   14,613                     11,529                5,330
    Iraqi Employees                                    1,685                      2,751              990
    Total Mission Employees                        16,298                     14,280                6,320
*
 Includes U.S. and third-country national direct-hire and contractor staff and locally employed direct-hire staff on
loan from other U.S. missions.
**
   Excludes Office of Security Cooperation-Iraq.
Source: Department of State.




                                                     26
                                                UNCLASSIFIED
                                             UNCLASSIFIED

                                                                                                       Appendix D

     Government Accountability Office Rightsizing Elements and Questions
      Elements                                                    Questions
Physical/technical       What is the threat and security profile of the embassy?
security of facilities   Has the ability to protect personnel been a factor in determining staffing levels at the
and employees            embassy?
                         To what extent are existing office buildings secure?
                         Is existing space being optimally utilized?
                         Have all practical options for improving the security of facilities been considered?
                         Do issues involving facility security put the staff at an unacceptable level of risk or limit
                         mission accomplishment?
                         What is the capacity level of the host country police, military, and intelligence services?
                         Do security vulnerabilities suggest the need to reduce or relocate staff?
                         Do health conditions in the host country pose personal security concerns that limit the
                         number of employees that should be assigned to the post?
Mission priorities and   What are the staffing levels and mission of each agency?
requirements             How do agencies determine embassy staffing levels?
                         Is there an adequate justification for the number of employees at each agency compared
                         with the agency’s mission?
                         Is there adequate justification for the number of direct-hire personnel devoted to support
                         and administrative operations?
                         What are the priorities of the embassy?*
                         Does each agency’s mission reinforce embassy priorities?
                         To what extent are mission priorities not being sufficiently addressed due to staffing
                         limitations or other impediments?
                         To what extent are workload requirements validated and prioritized and is the embassy
                         able to balance them with core functions?
                         Do the activities of any agencies overlap?
                         Given embassy priorities and the staffing profile, are increases in the number of existing
                         staff or additional agency representation needed?
                         To what extent is it necessary for each agency to maintain its current presence in country,
                         given the scope of its responsibilities and its mission?
                             Could an agency’s mission be pursued in other ways?
                             Does an agency have regional responsibilities or is its mission entirely focused on the
                             host country?
Cost of operations       What is the embassy’s total annual operating cost?
                         What are the operating costs for each agency at the embassy?
                         To what extent are agencies considering the full cost of operations in making staffing
                         decisions?
                         To what extent are costs commensurate with overall embassy strategic importance, with
                         agency programs, and with specific products and services?




                                                  27
                                             UNCLASSIFIED
                                                 UNCLASSIFIED

Consideration of            What are the security, mission, and cost implications of relocating certain functions to the
rightsizing options         United States, regional centers, or to other locations, such as commercial space or host
                            country counterpart agencies?
                            To what extent could agency program and/or routine administrative functions
                            (procurement, logistics, and financial management functions) be handled from a regional
                            center or other locations?
                            Do new technologies and transportation links offer greater opportunities for operational
                            support from other locations?
                            Do the host country and regional environments suggest there are options for doing
                            business differently, that is, are there adequate transportation and communications links
                            and a vibrant private sector?
                            To what extent is it practical to purchase embassy services from the private sector?
                            Does the ratio of support staff to program staff at the embassy suggest opportunities for
                            streamlining?
                            Can functions be reengineered to provide greater efficiencies and reduce requirements for
                            personnel?
                            Are there best practices of other bilateral embassies or private corporations that could be
                            adapted by the U.S. embassy?
                            To what extent are there U.S. or host country legal, policy, or procedural obstacles that
                            may impact the feasibility of rightsizing options?
*
 Embassy priorities are the U.S. foreign policy priorities in that country.
Source: Government Accountability Office, Overseas Presence: Rightsizing Framework Can Be Applied at U.S. Diplomatic
Posts in Developing Countries (GAO-03-396, April 2003).




                                                      28
                                                 UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                              Appendix E

Bureau of Near Eastern Affairs and U.S. Embassy Baghdad Response



                                                          United States Department of State

                                                          Washington, D.C. 20520



     UNCLASSIFIED                                          July 29, 2013

     MEMORANDUM

     TO:          OIG - Harold W. Geisel          ,~

     FROM:        NEA-SCNEX- Lee Lohman          1>f.sr
     SUBJECT: Response to Draft Report on Audit of the US. Mission Iraq Staffing
              Process


     Introduction
     NEA and Embassy Baghdad are in receipt of the "Audit of US. Mission Iraq
     Staffing Process" (AUD-MER0- 13-33) and submit here our responses to the
     report's formal recommendations. We welcome the suggestion that Mission Iraq,
     in collaboration with M/PRl, undergo a formal rightsizing study in 2014. Such a .
     study will allow Post to focus on the future and further adjust to changing
     conditions. It will also provide the Department valuable insight into this
     unprecedented process: re-configuring a large, support-intensive diplomatic
     platform after years of a U.S. military-supported presence. We are convinced
     such a study will yield significant "lessons learned" and document precedents that
     will greatly benefit the Department as it embarks upon this new era of
     expeditionary diplomacy in other challenging environments.

     The Bureau and Embassy do, however, take issue with several of the report's
     underlying assumptions. First, the report asserts that since the Mission did not (in
     the auditors view) follow a properly documented policy development process, i.e.
     the formal Rightsizing process, that the result "could be" wrong. It could also be
     right. In fact, in 2011 MIPRl declined Post's request to conduct a formal
     rightsizing study for Embassy Baghdad because there was no NEC construction
     planned. Instead, Post, in conjunction with NENEX and NEAll, conducted an
     informal rightsizing exercise to determine staffing levels for the 2014 summer
     transfer season using the same methodology as MIPRI. We identified several
     comparator posts (Bogota, Cairo, Riyadh, and Kuala Lumpur) and looking at their


                                      UNCLASSIFIED




                                           29
                                      UNCLASSIFIED
                                 UNCLASSIFIED



                                 UNCLASSifiED
                                     - 2-
staffing, made adjustments (particularly on management and security) for the
peculiar situation in Iraq.

M/PRI did conduct a formal rightsizing study of Consulate General Erbil for the
NCC project and the Mission did not alter those numbers at all during the Glide
Path exercise. In addition, a formal Rightsizing exercise would have had little
bearing on the vast majority of staff who are contractors. There arc also no
comparator posts for contractors · Iraq is unique in its extensive usc of same.

The second major unwarranted assumption in the report is that neither the Bureau
nor the Mission took our foreign policy objectives into consideration when we
reduced the Mission's staff. The report asserts that the Mission made its staffing
decisions based on the Strategic Framework Agreement while pointing out that the
Agreement was too general and outdated. In fact, the Embassy used the FY20 I 3
Mission Strategic and Resource Plan (MSRP), in which the Mission's established
policy priorities are clearly defi ned, as the basis for all its staffing reductions.

The th ird incorrect assumption was that our Glide Path exercise was ''directed"
entirely from Washington and mandated "across the board reductions."
Washington did direct significant downsizing for security and bilateral reasons, but
the specific numbers were decided at post and made with foreign policy priorities
in mind. The 20-25% reduction targets cited in the report were only guidelines for
the entire process, not cuts mandated for each section and/or agency. Personnel
reductions were made in different sections and agencies of the Embassy depending
on the necessity of the staff in those sections and/or agencies. Some sections were
not cut at all (Erbil, Basrah, DCMA, and DCAA) from the actual numbers on the
ground. Some sections cut more than the suggested percentages (i.e. the Political
Section at 42%) because the section's management determined that it could
perform all of its core functions with reduced staff. Furthermo re, over the past
eighteen months since the transition from military to civilian, the most dramatic
reductions in staffing and footprint happened as a result of our long-held goal to
transition away from DoD contracting and support mechanisms to State-run
contracts with larger local staff contingents and streamlined processes. These
reductions, while included in "Glide Path," resulted from decisions made by the
highest levels of the Department and interagency before "Glide Path" came into
being. While these decisions resulted in staff reductions, that result was not their
primary intent.




                                 UNCLASSIFIED




                                      30
                                 UNCLASSIFIED
                                   UNCLASSIFIED



                                  UNCLASSIFIED
                                      -3-
What the "Glide Path" describes
The original "Glide Path" models created in late 2012 that set out the staffi ng
footprint as it was then known were in fact purely descriptive in nature. The
models for any given year changed not based on a prescribed path but rather based
on long-planned assumptions such as the closure of the Police Development
Program after three years, the closure of the temporary Consulate in Kirkuk (its
footprint and life span were determined by interagency Deputies), and the
downsizing of the support platforms based on the assumption that State would
implement its own life support services contract. Once set out in basic form, the
models were continually revised as policy and conditions dictated. This aspect of
the glide path appears to have been misunderstood by the auditors. Projections
changed over time based not on dictates or direction from any particular office, but
rather based on the changes such as the closure of a facility or changes in a
program such as the closure of PDP or adjustments to the aviation program based
on available and safe commercial flights.

Described below arc specific instances of changes and adjustments that have taken
place over the course of the last eighteen months that, wh ile described within the
context of the "glide path," were not directed or mandated for downsizing but
rather illustrate the evo lution of staffing and facilities needs in an ever-changing
program and policy env ironment.

The original "Glide Path" cable reductions on March 2012 were generated at
Post and were designed to describe the new reality as much as they were to guide
future cuts. Of the 295 cuts delineated in the original cables, II I position cuts
were "immediate" meaning they were already unencumbered. In large part. these
positions came from PRTs, DoD, the Office of Provincial Affairs and ACMAT and
were associated with programs already eliminated. Likewise the sun-setting of the
3161 program was not mandated. T he Executive Order for ISPO expired in May
2013 and the remaining personnel (now fewer than 15 from a high of over 300) are
engaged in program close-out over the next 24 months. These reductions were
included in the "Glide Path" but many were already scheduled for abolishment.

The closure of the Police Development Program was not part of "Glide Path"
planning nor was it mandated. The closure resulted in the elimination of the
Baghdad Police Academy Annex and approximately I 00 direct hire and I ,000
contractor positions in management, security, and life support at four sites.

The large reductions in the contractor work force are coming about due to the
transition from LOGCAP to the State-administered OMSS and BLiSS contracts.


                                 UNCLASSifiED




                                        31
                                   UNCLASSIFIED
                               UNCLASSIFIED



                                  UNCLASSIFIED
                                      -4-
The timing of this transition is the culmination of a 30-month process that began
when DoD agreed to allow State to use the LOGCAP mechanism as a bridge until
State mechanisms were in place. 'vVith those mechanism now on-line o r soon to be
on-line, State will reali ze staffing reductions that have been on the drawing board
since 20 I I. These assumptions were incorporated into glide path planning but
were not mandated by it. (Note the overall reduction of 829 life support
contractors cited on page I 0 of the report is a misinterpretation; we estimate an
overall reduction in life support contractors (U.S., TCN, and Iraqi) of over 4,000
from their high point in 20 12).

The downsizing and transformation of OSC sites away fro m USG-provided life,
security, and support services and toward a traditional FMS model in which the
primary contractual relationship is between U.S. companies and the host
government, was likewise not mandated by the "Glide Path." This evolution to a
traditional FMS model will result in further steep declines in contractor numbers
between now and the end of this fiscal year that were carefull y planned and
executed at the highest levels of the USG as part of a long-term strategic FMS
plan.

The return of 85% ofthe Prosperity footprint was not part of the original
"Glide Path" plan. In response to a request for expedited turnover, and Post's
concerns that those li vi ng there did not have the benefit of hardened overhead
cover, Post responded with modified staffing and construction plans that allowed
for the consolidation of housing on the BEC. The most substantial staffing
decrease resulting from the turnover is in the perimeter guard force--a
phenomenon widely recognized throughout the transition period as the one action
that results in the most cuts: closed compounds translate into hundreds fewer
 guards and security personnel, support staff, and management personnel. Closing
compounds was planned for in the ''Glide Path" process, but not mandated.

Downsizing of aviation, medical, life support and security personnel have
come about due to closed compounds, the availability of safe commercial air
flights, and more efficient contracting arrangements. Again, these reductions were
not mandated by the "Glide Path"- they were, however, incorporated in the
modeling.

Collaboration among State and Interagency Actors
The other assertion reflected in the text of the report is that staffing reductions
were made without the full concurrence and participation of Diplomatic Security
(DS) (p. I 5) and the Bureau of Overseas Buildings Operations (080) (p. I 6).


                                 UNCLASSifiED




                                    32
                               UNCLASSIFIED
                              UNCLASSIFIED



                                 UNCLASSIFIED
                                     - 5-
These entities, along with many other State and DoD offices, were fully integrated
into the planning processes. Such assertions do not take into consideration the
robust consultative structures that were put into place for the transition and which
endure today. Indeed, the agility to change course was key to the success of the
transition. Weekly multiple high- and working-level telephone calls and video
conferences arc stil l held each week between Post, State, DoD and other
interagency pa1iners. State bureaus and offices, as well as Post leadership,
remained fully informed and engaged from well before the transition to present in a
dynamic consultative process to ensure that facil ities and security were closely
matched to Mission priorities and needs.

Recommendation I: OIG recommends that the Bureau of Ncar Eastern Affairs
and Mission Iraq formally communicate U.S. Government foreign policy priorities
to all clements of the U.S. Mission to Iraq and the parent agencies of its
components.

Response I: Embassy Baghdad, in coordination with NEA and other appropriate
offices in the Department, will take immediate action to formally communicate
U.S . Government foreign policy priorities to all elements of the U.S. Mission to
Iraq. The Chief of Mission will convene a special meeting of the Country Team to
review the Mission Strategic Resource Plan and ensure that foreign policy
priorities arc clear and understood by all.

Recommendation 2: OIG recommends that U.S. Embassy Baghdad, in
coordination with the Bureau of Near Eastern Affairs and the Office of
Management Policy, Rightsizing and Innovation, conduct a formal and systematic
analysis of starting requirements based on the policy priori ties, programs,
operations, conditions, and other relevant factors specific to U.S. Mission Iraq
(except for Consulate General Erbil, where such an analysis was completed in
2013).

Response 2: Embassy Baghdad recognizes rightsizing is a continuing requirement
and is committed to reviewing programs, personnel and funding levels regu larly.
As paii of this commitment we have already requested and received pennission to
conduct a formal Rightsizing study in January 20 I 4 and look forward to working
with M/PRI, NFA, other State Department bureaus and other USG agencies in the
process.

Recommendation 3: OIG recommends that the Bureau of Overseas Buildings
Operations, in coordination with U.S. Embassy Baghdad, deve lop a strategic


                                UNCLASSIFIED




                                   33
                              UNCLASSIFIED
UNCLASSIFIED




          [Redacted] (b) (2), [Redacted] (b) (6)




     34
UNCLASSIFIED
                              UNCLASSIFIED



                                                                                    Appendix F

      Bureau of Overseas Buildings Operations Response




                                              United States Department of State

                                              Washington. D.C. 20520




UNCLASSIFIED                                             JUL 1 6 2013

MEMORANDUM

TO:         OIGIMERO- Ms. Carol Gorman

FROM:       OBO/RM - Ji.irg E. Hochuli /<-.s¥
SUBJECT: OBO Comments on Draft Report on Audit of U.S. Mission Iraq
         Staffing Process, June 2013

REF:        OIG Memorandum to Lydia Muniz, dated 27 June, 2013


      Attached are OBO's comments on Recommendation 3 of the subject report
for which OBO has been assigned action. For ease of reference, our response is in
bold.


Attachment:
      As noted




                                UNCLASSIFIED




                                   35
                              UNCLASSIFIED
                                  UNCLASSIFIED



                                 UNCLASSIFIED

Draft Report on Audit of the U.S. Mission Iraq Staffing Process,
June 2013

Recommendation 3: OIG recommends that the Bureau of Overseas Buildings
Operations, in coordination with U.S. Embassy Baghdad, develop a strategic
facilities plan for construction and maintenance that reflects the results of a
systematic analysis of staffing requirements.

OBO Response, July 2013: OBO concurs, and will be able to take actions to
implement this recommendation once M/PRI and NEA/SCA conduct a new
rightsizing study and publish a staffing plan that reflects the U.S.
government's current policy priorities.




                               UNCLASSIFIED




                                       36
                                  UNCLASSIFIED
                                       UNCLASSIFIED


Major Contributors to This Report

Carol Gorman, Deputy Assistant Inspector General
Middle East Region Operations
Office of Audits

David G. Bernet, Director
Middle East Region Operations
Office of Audits

Gerald P. Montoya, Director, Baghdad
Middle East Region Operations
Office of Audits

Carl Gipson, Senior Management Analyst
Middle East Region Operations
Office of Audits

W. Preston Jacobs, Management Analyst
Middle East Region Operations
Office of Audits

Kenneth A. Leonard, Auditor
Middle East Region Operations
Office of Audits

Scott Thayer, Inspector
Office of Inspections

Margaret Hardy, Management Analyst
BCP International, LTD

Sargent Karch, Auditor
BCP International, LTD




                                            37
                                       UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
